U.S. Department of Agriculture
 Office of Inspector General
 Financial and IT Operations
         Audit Report



  INFORMATION SECURITY AT THE
NATIONAL AGRICULTURAL STATISTICS
            SERVICE




               Report No.
               26099-2-FM
               March 2002
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                OFFICE OF INSPECTOR GENERAL

                                    Washington D.C. 20250




DATE:        March 25, 2002

REPLY TO
ATTN OF:     26099-2-FM

SUBJECT:     Information Security at the National Agricultural Statistics Service

TO:          R. Ronald Bosecker
             Administrator
             National Agricultural Statistics Service


This report presents the results of our audit of Information Security at the National
Agricultural Statistics Service (NASS). You requested that we conduct this review to
ascertain whether security breaches, alleged in paper e-mail messages brought to your
attention in November 2001, actually existed. Nothing came to our attention during our
review that indicated that the alleged security breaches had occurred or NASS data had
been misused. While we did identify material weaknesses in the NASS network,
nothing came to our attention during our review that indicated that NASS or its
employees used those weaknesses for personal gain. NASS has corrected a
substantial number of the problems found, and has aggressively implemented plans to
correct the remaining areas of concern.

Your response to our draft report is included in Exhibit A, with excerpts incorporated in
the findings and recommendations section of the report. Based on the information
provided in the response, we have accepted management decisions on all
recommendations. Please follow your internal procedures in forwarding documentation
of final action to the Office of the Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us during this audit.




RICHARD D. LONG
Assistant Inspector General
 for Audit
                       EXECUTIVE SUMMARY

                     INFORMATION SECURITY AT THE
               NATIONAL AGRICULTURAL STASTICS SERVICE

                        AUDIT REPORT NO. 26099-2-FM


                                    We initiated our review at the request of the
     RESULTS IN BRIEF               National Agricultural Statistics Service (NASS)
                                    management to verify whether (1) its
                                    employees had used its electronic mail (e-
         mail) system to prepare and send three sets of e-mails, which contained
         racially derogatory language and alleged security breaches within NASS’
         network; and (2) security breaches alleged in those e-mails actually
         occurred.     The e-mails were brought to the attention of NASS
         management after two current NASS employees said they received them
         in hard copy through the U.S. Postal Service. NASS management
         immediately requested that we conduct a review to determine whether the
         e-mails and the security breaches alleged in those e-mails were
         legitimate. We conducted our review in January and February 2002.
         Nothing came to our attention during our review that indicated that the e-
         mails had been initiated using the NASS e-mail system, and that the
         security breaches alleged in those e-mails had occurred, or that any
         NASS data had been misused. Further, while we did identify material
         weaknesses in the administration of NASS’ network as discussed below,
         nothing came to our attention during our review that indicated that NASS
         or its employees used those weaknesses for personal gain.

           Our vulnerability scans of selected NASS network devices disclosed
           vulnerabilities that could be exploited from within NASS’ network, and
           some that can be exploited externally. NASS had taken action on our
           prior audit recommendation by acquiring one of the vulnerability
           assessment tools that we used during our audit; however, NASS just
           began to use the tool and had not fully implemented the use of the tool in
           its efforts to identify and eliminate security vulnerabilities within its
           network.

           We found that NASS needs to strengthen its firewall administration and
           increase security over remote access to its network resources. Due to
           other priorities placed on its security staff, NASS does not have controls in
           place to keep its firewall configuration current by periodically reviewing
           and modifying its firewall rules, and has not ensured that the firewall

USDA/OIG-A/26099-2-FM                                                            Page i
          administrator receives proper training in its configuration. In addition,
          NASS’ current remote access policy reduces the effectiveness of its
          firewall by allowing users unauthenticated access through it.

          We also found that NASS did not ensure that only authorized users had
          access to its network. NASS had not implemented adequate written
          procedures to ensure that it timely removed user accounts for those
          persons that left NASS employment, and had accepted the risk of using
          generic user accounts on its network. As a result, persons no longer
          employed at NASS or anyone with knowledge of the generic user
          accounts could inappropriately access and potentially destroy critical
          NASS data.

          Finally, NASS needs to report the material internal control weaknesses we
          have identified in its Federal Manager’s Financial Integrity Act (FMFIA)
          report. It also needs to establish goals and performance measures in its
          Government Performance and Results Act (GPRA) report that relate to
          securing its information technology resources and data.

                                       We recommended that NASS:
  KEY RECOMMENDATIONS

          •   Ensure corrective actions are taken on all high and medium-risk
              vulnerabilities identified on the assessment reports provided to NASS
              officials.

          •   Develop and implement a policy to periodically review the firewall
              configuration and remove or modify firewall rules as necessary.

          •   Implement a virtual private network solution with smart card or token
              authentication and strong encryption for remote access to the internal
              NASS network.

          •   Ensure that NASS’ security staff is properly trained to configure and
              maintain the firewall rule base to ensure the appropriateness of firewall
              rules.

          •   Establish and implement procedures to periodically reconcile user
              accounts on the NASS networks to current employee listings, and take
              immediate action to remove those accounts no longer needed.

          •   Discontinue the use of all generic user accounts on the NASS network.
              Establish accounts on an as-needed basis and assign individual
              responsibility to those accounts.


USDA/OIG-A/26099-2-FM                                                          Page ii
          •   Report the material control weaknesses identified in this report,
              including the noncompliance with Office of Management and Budget
              Circular A-130 and Presidential Decision Directive 63 in its FMFIA
              report.

          •   Establish performance goals and measures relating to information
              technology security in its GPRA report.

                                    NASS agreed with our recommendations and
    AGENCY RESPONSE                 has initiated significant corrective actions.



                                    We concurred with NASS’ proposed corrective
        OIG POSITION                actions.




USDA/OIG-A/26099-2-FM                                                    Page iii
                                      TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................i
   RESULTS IN BRIEF....................................................................................................i
   KEY RECOMMENDATIONS ......................................................................................ii
   AGENCY RESPONSE ..............................................................................................iii
   OIG POSITION..........................................................................................................iii
TABLE OF CONTENTS................................................................................................iv
INTRODUCTION............................................................................................................1
   BACKGROUND .........................................................................................................1
   OBJECTIVES .............................................................................................................2
   SCOPE .......................................................................................................................3
   METHODOLOGY .......................................................................................................3
FINDINGS AND RECOMMENDATIONS .......................................................................5
   CHAPTER 1 ...............................................................................................................5
   MISUSE OF NASS IT RESOURCES COULD NOT BE SUBSTANTIATED ..............5
   FINDING NO. 1 ..........................................................................................................5
   CHAPTER 2 ...............................................................................................................7
   VULNERABILITIES COULD EXPOSE NASS SYSTEMS TO THE RISK OF
   MALICIOUS ATTACKS FROM INTERNAL AND EXTERNAL THREATS ................7
   FINDING NO. 2 ..........................................................................................................7
   RECOMMENDATION NO. 1 ....................................................................................10
   RECOMMENDATION NO. 2 ....................................................................................10
   RECOMMENDATION NO. 3 ....................................................................................11
   RECOMMENDATION NO. 4 ....................................................................................11
   CHAPTER 3 .............................................................................................................12
   NASS NEEDS TO STRENGTHEN ADMINISTRATION OF ITS FIREWALL AND
   IMPROVE REMOTE ACCESS PROCEDURES.......................................................12
   FINDING NO. 3 ........................................................................................................12
   RECOMMENDATION NO. 5 ....................................................................................14
   RECOMMENDATION NO. 6 ....................................................................................14

USDA/OIG-A/26099-2-FM                                                                                                  Page iv
   RECOMMENDATION NO. 7 ....................................................................................15
   CHAPTER 4 .............................................................................................................16
   NASS NEEDS TO STRENGTHEN ITS LOGICAL ACCESS CONTROLS ..............16
   FINDING NO. 4 ........................................................................................................16
   RECOMMENDATION NO. 8 ....................................................................................17
   RECOMMENDATION NO. 9 ....................................................................................18
   RECOMMENDATION NO. 10 ..................................................................................18
   CHAPTER 5 .............................................................................................................19
   FURTHER ACTIONS NEEDED TO COMPLY WITH FEDERALLY MANDATED
   SECURITY REQUIREMENTS..................................................................................19
   FINDING NO. 5 ........................................................................................................19
   RECOMMENDATION NO. 11 ..................................................................................20
   RECOMMENDATION NO. 12 ..................................................................................20
   EXHIBIT A – NASS RESPONSE TO THE DRAFT REPORT ..................................21
ABBREVIATIONS........................................................................................................26




USDA/OIG-A/26099-2-FM                                                                                              Page v
                           INTRODUCTION

                                      Information security is critical for any
       BACKGROUND                     organization that depends on information
                                      systems and computer networks to carry out
                                      its mission or business. Computer security
         risks are significant, and they are growing. The dramatic expansion in
         computer interconnectivity and the exponential increase in the use of the
         Internet are changing the way our Government, the nation, and much of
         the world communicate and conduct business. However, without proper
         safeguards, these developments pose enormous risks that make it easier
         for individuals and groups with malicious intentions to intrude into
         inadequately protected systems and use such access to obtain sensitive
         information, commit fraud, disrupt operations, or launch attacks against
         other organizations’ sites. This environment poses a threat to the
         sensitive and critical operations of the National Agricultural Statistics
         Service (NASS).

          NASS administers the U.S. Department of Agriculture’s (USDA) program
          of collecting, compiling, and disseminating current national, State, and
          county agricultural statistics. NASS’ primary activities are the collection,
          summarization, and analysis of data for publication of accurate and
          reliable agricultural forecasts and estimates. Statistical data developed by
          NASS on the nation’s agriculture are essential for the orderly development
          of production and marketing decisions by farmers, ranchers, and
          agribusiness. This data is also used for defining and carrying out
          agricultural policy related to farm program legislation, commodity
          programs, agricultural research, rural development, and related activities.

          NASS issues the official agricultural production and marketing estimates
          relating to (1) the number of farms and land in farms, acreage, yield and
          production of grains, grain stocks, hay, oilseeds, cotton, some fruits and
          vegetables, floriculture and other specialty crops; (2) inventories and
          production of hogs, cattle, sheep and wool, catfish, trout, poultry, eggs,
          dairy products; (3) prices received by farmers; (4) prices paid by farmers
          for inputs and services, cold storage stocks, agricultural labor and wage
          rates; and (5) other agricultural subjects. Information for the official
          estimates is gathered from many sources, using a variety of means.

          The information is entered through NASS’ network of Local Area
          Networks, and uploaded through data communications to a mainframe
          computer where data files are stored and processed. Data from the

USDA/OIG-A/26099-2-FM                                                         Page 1
                   surveys are edited on the mainframe computer, or are edited and
                   summarized on personal computers at the State Statistical Offices’ (SSO).
                   The SSO’s also transmit computer data containing survey indicators and
                   recommended estimates to Headquarters using data communications.
                   Corn, cotton, soybeans, sweet oranges, winter wheat, and other spring
                   wheat have been designated as “speculative” commodities. Data for
                   these commodities are encrypted and handled under special security
                   procedures in the “lockup” facility, where the official statistical estimates
                   are generated, because of the sensitivity of the data and its potential
                   impact on the futures market prices of the commodities involved. For
                   “non-speculative” commodities that have been classified as sensitive, data
                   communications are not encrypted and the estimates are finalized before
                   the “lockup.”

                   In May 2001, we issued our report on the security over NASS’ information
                   technology (IT) resources.1 That audit was initiated as a part of a
                   nationwide audit of IT security within the Department. We reported that
                   NASS’ network was vulnerable to the threat of internal and external
                   intrusion, was not in compliance with federally mandated requirements for
                   managing its IT resources, and had not ensured that only authorized users
                   had access to its network resources. We recommended that NASS
                   periodically scan its network for vulnerabilities, ensure compliance with
                   federally mandated security requirements, and ensure that only authorized
                   users had access to its network. NASS agreed with our recommendations
                   and immediately took action toward correcting the identified weaknesses.

                   Toward the end of that review, two NASS employees contacted the Office
                   of Inspector General (OIG) whistleblower hotline and reported the
                   existence of weaknesses in the NASS network. We contacted the two
                   employees to determine the nature of the weaknesses; however, at that
                   time they refused to discuss the specifics surrounding their concerns at
                   the advice of their legal council.

                   Since that review, the two NASS employees said they received, through
                   the U.S. Postal Service mail, a series of e-mails containing racially
                   derogatory statements and citing backdoors in the NASS’ firewall
                   configuration, and the existence of ‘special user’ accounts and ‘corporate
                   friends.’ In November 2001, NASS officials requested that OIG conduct a
                   review to ascertain whether the alleged security breaches existed.

                                                           The objectives of this audit were to (1) verify
               OBJECTIVES                                  whether e-mails that contained racially
                                                           derogatory comments and allegations of

1
 Audit Report No. 26099-1-FM, “Security Over Information Technology Resources at the National Agricultural Statistics Service,”
dated May 14, 2001.

USDA/OIG-A/26099-2-FM                                                                                               Page 2
          security weaknesses in the NASS network had been prepared by NASS
          employees using the agency’s e-mail system; (2) whether the security
          breaches alleged by those e-mails actually occurred; (3) follow up on the
          agency’s progress in correcting the audit findings from our prior NASS IT
          audit; (4) determine the adequacy of security over the Local and Wide
          Area Networks; (5) determine if adequate logical and physical access
          controls exist to protect computer resources against unauthorized
          modification, disclosure, loss, or impairment; and (6) address any NASS
          management concerns.

                                       We restored and reviewed the contents of
            SCOPE                      selected NASS network server backup tapes
                                       within the October 1998 through December
                                       1999 timeframe containing e-mail databases
          and user e-mail archives. We reviewed NASS’ progress in implementing
          the recommendations made in our prior report. We also tested the NASS
          computer network to identify vulnerabilities that could enable unauthorized
          users to access sensitive data stored on or transmitted over NASS’
          systems. We conducted our assessment at the NASS headquarters in
          Washington, D.C. We used commercial software applications to assist us
          in our security reviews of numerous NASS network components.

          The audit was conducted in accordance with “Government Auditing
          Standards.” Our testing was performed during January and February
          2002.

                                      To accomplish our audit objectives, we
       METHODOLOGY                    performed the following procedures:


          •   We restored and reviewed e-mail databases and user archives from
              NASS backup tapes to ascertain whether NASS employees prepared
              and sent certain e-mails using its e-mail system.

          •   We reviewed the firewall and router configurations to determine
              whether adequate security measures had been implemented by NASS
              to protect its IT resources.

          •   We interviewed the two NASS employees that had called the OIG
              whistleblower hotline to obtain an understanding of their concerns
              regarding the security over NASS’ IT network environment.


          •   We interviewed the current NASS employees named in the e-mails to
              determine whether they prepared or received those e-mails, or if they
              had any information relating to the allegations cited in those e-mails

USDA/OIG-A/26099-2-FM                                                        Page 3
              regarding security breaches within the NASS network.

          •   We reviewed IT security policies and procedures issued by Office of
              Management and Budget (OMB), the Department, and NASS, to
              ensure NASS’ compliance with existing IT security requirements.

          •   We performed detailed testing of NASS’ entity-wide security program,
              analyzed logical access controls at the NASS headquarters, and by
              analyzing records and controls established to ensure that the security
              of the NASS’ computer systems were sufficient and that controls were
              functioning as intended.

          •   We interviewed NASS officials responsible for managing the agency’s
              computer systems to obtain an understanding of the management of
              its IT resources.

          •   We conducted vulnerability scans of the systems located in the NASS
              headquarters’ network to assess the threat of network penetration.




USDA/OIG-A/26099-2-FM                                                       Page 4
           FINDINGS AND RECOMMENDATIONS


CHAPTER 1         MISUSE OF NASS IT RESOURCES COULD NOT BE
                  SUBSTANTIATED


                                       We initiated our review at the request of NASS
        FINDING NO. 1                  management to (1) verify whether its
                                       employees had used its e-mail system to
                                       prepare and send three sets of e-mails, which
                                       contained racially derogatory language and
           alleged security breaches within NASS’ network; and (2) verify whether
           the security breaches alleged in those e-mails actually occurred. Those e-
           mails were brought to the attention of NASS management after two
           current NASS employees said they received them in hard copy through
           the U.S. Postal Service. NASS management immediately requested that
           we conduct a review to determine whether the e-mails and the security
           breaches alleged in those e-mails were legitimate.

           With the assistance of NASS staff, we restored selected backup tapes
           dated October 30, 1998; November 27, 1998; April 30, 1999; May 28,
           1999; and one set containing December 2000 archives. However, not all
           the backup tapes from the time period of the e-mails existed and were not
           available for our review. NASS had only a 13-month retention policy for
           backup tapes; therefore, NASS employees took older tapes and reused
           them as needed. Those tapes we chose to restore contained NASS’ e-
           mail database or user-archived e-mails that should have provided us the
           ability to determine whether the e-mails, dated October 1998, April 1999,
           and December 1999, were present in the existing NASS backup tapes.
           We also conducted a review of the e-mail archives of a former NASS
           employee that were provided to us by the two current NASS employees
           who said that they received the questioned e-mails. Our review efforts
           consisted not only of searching for the exact e-mails, but also searching
           for the existence of approximately 20 key words and phrases. Searching
           for these words and phrases would indicate the additional use of racially
           derogatory language, or the existence of additional security breaches
           similar to those alleged in the e-mails such as ‘back doors’ in the firewall,
           ‘special user’ accounts, or the existence of ‘corporate friends.’

           We also interviewed the two NASS employees who said they received the
           hard copy e-mails through the U.S. Postal Service. They discussed with

USDA/OIG-A/26099-2-FM                                                           Page 5
          us their concerns over the security of NASS network resources, which we
          have addressed elsewhere in this report; however, they informed us that
          they had no knowledge of the specific security breaches alleged in the e-
          mails. We contacted these two employees prior to the issuance of our
          previous audit after they had contacted our whistleblower hotline. At that
          time, and at the advice of their legal council, they refused to provide us
          specifics of their concerns over the security of NASS’ network.

          We also interviewed the current NASS employees that were named in the
          e-mails. Each of the employees individually stated that they had not seen,
          received, or written the e-mails.         Further, the employees had no
          knowledge of any ‘back door’ in the NASS firewall, ‘special user’ accounts,
          or ‘corporate friends,’ as alleged in the e-mails.

          In conclusion, the backup tapes we reviewed did not contain the
          questioned e-mails. Because only a limited number of backup tapes
          existed, we cannot say with certainty whether or not the e-mails actually
          originated from the NASS e-mail system. However, nothing came to our
          attention during our review that indicated that the e-mails had been
          initiated using the NASS e-mail system, that additional e-mails containing
          racially derogatory comments existed, that the security breaches alleged
          in those e-mails had occurred, or that any NASS data had been misused.
          Finally, while we did identify material weaknesses in the administration of
          NASS network, nothing came to our attention during our review that
          indicated that NASS or its employees used those weaknesses for
          personal gain.




USDA/OIG-A/26099-2-FM                                                        Page 6
                               VULNERABILITIES COULD EXPOSE NASS SYSTEMS
CHAPTER 2                      TO THE RISK OF MALICIOUS ATTACKS FROM
                               INTERNAL AND EXTERNAL THREATS


                                                Our vulnerability scans of selected NASS
               FINDING NO. 2                    network devices disclosed vulnerabilities that
                                                could be exploited from within NASS’ network,
                                                and some that can be exploited externally.
                                                NASS had taken actions to implement the
                  recommendations we made in our prior audit report by acquiring one of
                  the vulnerability assessment tools that was used during our audit;
                  however, NASS just began to use the tool prior to our audit and had not
                  fully implemented the use of the tool in its efforts to identify and eliminate
                  security vulnerabilities within its systems. NASS has begun to correct the
                  vulnerabilities we identified; however, until it completes its own scanning
                  process, NASS’ systems and networks could be vulnerable to cyber-
                  related attacks.

                     The OMB Circular A-130 requires agencies to assess the vulnerability of
                     information system assets, identify threats, quantify the potential losses
                     from threat realization, and develop countermeasures to eliminate or
                     reduce the threat or amount of potential loss.

                     We conducted our assessment of selected NASS network components in
                     January and February 2002. We utilized two commercial off-the-shelf
                     software products, one designed to identify over 1,000 vulnerabilities
                     associated with various operating systems that use Transmission Control
                     Protocol/Internet Protocol (TCP/IP);2 and the other, which tests system
                     settings in Novell networks.

                     TCP/IP System Vulnerabilities

                     We conducted our vulnerability scans at NASS’ Washington, D.C. offices.
                     These scans included 46 NASS network components. Our assessments
                     revealed 92 high and medium-risk vulnerabilities.3 In addition, we
                     identified 139 low-risk vulnerabilities.          The high and medium
                     vulnerabilities, if left uncorrected, could allow unauthorized users access
                     to NASS data. While NASS took corrective action to eliminate the
2
  The TCP/IP is a series of protocols originally developed for use by the U.S. Military and now used on the Internet as the primary
standard for the movement of data on multiple, diverse platforms, such as Windows NT and UNIX.
3
  High-risk vulnerabilities are those that provide access to the computer, and possibly the network of computers. Medium-risk
vulnerabilities are those that provide access to sensitive network data that may lead to the exploitation of higher risk vulnerabilities.
Low-risk vulnerabilities are those that provide access to sensitive, but less significant network data.

USDA/OIG-A/26099-2-FM                                                                                                        Page 7
          vulnerabilities we identified in our last review, many of the high and
          medium-risk vulnerabilities we identified in this review were on systems
          that we had not previously scanned or on systems that NASS had placed
          into production since our prior review. Further, since our prior review, the
          software tool we used had been updated to identify an additional 200
          vulnerabilities that had not been known to exist during our prior review.
          NASS recently purchased the same vulnerability scanning tool that we
          used and had just begun to integrate it into its overall security
          management process at the time of our review. To fully benefit from this
          tool, NASS needs to implement written policies to scan and mitigate the
          identified vulnerabilities.

          In addition to our review, NASS contracted with a private-sector firm to
          review its network security and its remote access policy. That contractor
          was able to successfully compromise NASS’ network using a well-known
          vulnerability that existed on one of its systems. The contractor made
          several recommendations to strengthen NASS’ network security and
          remote access policies. NASS agreed with those recommendations and
          has begun to address them.

          Detailed below are examples of the high-risk vulnerabilities revealed
          during our scans of the NASS systems:

          •   A commonly used program to transfer electronic mail contains a
              vulnerability that could allow an attacker to gain complete
              administrative privileges of the system. Once this administrative
              privilege is established, an attacker could obtain, modify or destroy
              NASS data.

          •   Two commonly used programs used to transfer files and perform
              remote administration were configured with default passwords. An
              attacker could use these programs to install and execute malicious
              software on this system that could affect other systems within the
              network.

          We also conducted our scans through the firewall established by NASS as
          protection     between      NASS’    systems     and    the   departmental
          telecommunications network. Through the firewall, we identified 16 high
          and medium-risk vulnerabilities and 8 low vulnerabilities.           These
          vulnerabilities may be exploitable by malicious users outside the NASS
          network, including the global Internet.        Finally, in addition to the
          vulnerabilities identified by our scans, we found weak user passwords on
          several of NASS’ systems.




USDA/OIG-A/26099-2-FM                                                         Page 8
          Novell System Policies

          We conducted a detailed assessment of the security of NASS’ Novell
          network at its headquarters office. Our assessment software allowed us
          to compare NASS’ established security practices to the actual settings on
          the Novell systems. We also compared the system’s security settings to
          the software product’s “best practices settings,” which are based on
          standard practices from a wide variety of government and private
          institutions. The software product reports weaknesses that may leave the
          system open to potential threats in the following areas (1) account
          restrictions, (2) password strength, (3) access control, (4) system
          monitoring, (5) data integrity, and (6) data confidentiality.

          Our assessments disclosed that NASS had corrected several vulnerable
          areas in its Novell network since our prior audit, including removing
          administrative authorities of those users that no longer needed them, and
          increasing user account password strength requirements. However,
          weaknesses in account restrictions and access controls still exist because
          NASS was still in the process of fully implementing our prior audit
          recommendations. These two areas define a user’s ability to access the
          system. NASS does not have a vulnerability assessment tool for its Novell
          networks, but officials expressed the need to obtain an assessment tool
          similar to the one we used. Some of the weaknesses we found included:

          •   User accounts were hidden from the system administrator. Because
              they are hidden, these accounts may not be subject to the same type
              of review as other accounts and may not be timely removed when no
              longer needed. Hidden accounts should not be used as they provide
              an additional means for unauthorized and potentially unmonitored
              access to the network. This vulnerability is nearly impossible to
              identify without the assistance of an analysis tool similar to the one we
              used.

          •   An excessive number of accounts had not been accessed within 90
              days. We identified 168 of these accounts, 97 of which had not been
              disabled by the systems administrator. User accounts that become
              inactive, but not disabled, provide opportunities for unauthorized users
              to gain access to the network. An attacker can try different passwords
              on these inactive accounts and attempt to gain access to the network.
              Once that access is gained, unauthorized activity cannot be traced to
              the responsible person.

          We provided NASS officials with the vulnerability assessment reports.
          NASS officials informed us that they had begun addressing the
          vulnerabilities.

USDA/OIG-A/26099-2-FM                                                          Page 9
                                      Ensure corrective actions are taken on all high
  RECOMMENDATION NO. 1                and medium-risk vulnerabilities identified on
                                      the assessment reports provided to NASS
                                      officials.

          Agency Response

          NASS agreed that the vulnerabilities found during the audit pose a
          potential threat to its network. NASS prioritized the vulnerabilities and
          concentrated on those that were present outside, or external, to its
          network. NASS had already mitigated nearly all of the vulnerabilities
          exploitable from outside its network and many of those that were
          exploitable from within its network. NASS will make every attempt to
          mitigate the remaining high and medium-risk vulnerabilities by April 19,
          2002, and low-risk vulnerabilities by May 10, 2002. NASS will provide
          follow up notification to the Chief Financial Officer and Office of the Chief
          Information Officer if it fails to successfully mitigate all high and medium-
          risk vulnerabilities by April 19, 2002.

          OIG Position

          We accept the management decision on this recommendation.

                                      Implement a written policy to periodically
  RECOMMENDATION NO. 2                conduct vulnerability scans on all network
                                      resources, and ensure that the vulnerabilities
                                      identified are timely mitigated.

          Agency Response

          NASS understand the importance of conducting periodic vulnerability
          assessments. NASS participated in the Department’s acquisition of
          vulnerability assessment software in October 2001. NASS plans to
          complete training in this software’s usage as soon as possible with the
          intention of beginning network scans during the spring of 2002. NASS has
          prepared a Security Policy Directive requiring scans of the NASS network
          on a monthly basis and directs staff to mitigate all high and medium-risk
          vulnerabilities within two weeks.

          OIG Position

          We accept the management decision on this recommendation.




USDA/OIG-A/26099-2-FM                                                         Page 10
                                     Ensure corrective action is taken on all the
  RECOMMENDATION NO. 3               vulnerabilities identified in NASS’ Novell
                                     operating system, especially those pertaining
                                     to account restrictions and access controls.

          Agency Response

          NASS has reviewed the user accounts which have not been accessed for
          90 days or more. NASS has deleted 32 of these accounts and disabled
          an additional 61 totaling 93 of the 97 accounts that had not been accessed
          for 90 days or more. The remaining four accounts are tied to application
          software systems and need to be present when problems are
          encountered. The disabled accounts will be evaluated during April 2002,
          to determine if they can be permanently deleted from the system.

          OIG Position

          We accept the management decision on this recommendation.

                                     Obtain the software and implement a policy to
  RECOMMENDATION NO. 4               periodically scan its Novell systems to identify
                                     configuration weaknesses in that operating
                                     system.

          Agency Response

          NASS is currently obtaining prices for a software tool that will allow the
          agency to perform assessments of our Novell servers. The assessment
          software will be acquired by NASS in April 2002.

          OIG Position

          We accept the management decision on this recommendation.




USDA/OIG-A/26099-2-FM                                                       Page 11
                  NASS NEEDS TO STRENGTHEN ADMINISTRATION
CHAPTER 3         OF ITS FIREWALL AND IMPROVE REMOTE ACCESS
                  PROCEDURES


                                         NASS needs to strengthen its firewall
        FINDING NO. 3                    administration and increase security over
                                         remote access to its network resources. Due
                                         to other priorities placed on its security staff,
                                         NASS does not have controls in place to keep
           its firewall configuration current by periodically reviewing and modifying its
           firewall rules, and has not ensured that the firewall administrator receives
           proper training in its configuration. In addition, NASS’ current remote
           access policy reduces the effectiveness of its firewall and its other security
           measures by allowing unauthenticated access through its firewall. This
           and the effects of the weak logical access controls we identified in Finding
           No. 4, places NASS’ network at risk of compromise.

           The OMB Circular A-130, Appendix III, “Security of Federal Automated
           Information Resources,” established a minimum set of controls for
           agencies’ automated information security programs.     Agencies are
           required to establish controls to assure adequate security for all
           information processed, transmitted, or stored.

           Firewall Configuration

           Our review found that NASS has not established controls to periodically
           review its firewall configurations to ensure that they are kept current and
           that user accounts on the firewall system are kept to a minimum and are
           properly disabled or removed when not needed. On one of its firewalls,
           we found that the NASS security staff overlooked generic system user
           accounts that had not been properly disabled. Further, we found that a
           former employee responsible for administering the firewall, who resigned
           in December 2001, still had a user account on the firewall system. We
           later confirmed that this former employee’s account had been disabled;
           however, it should have been removed. In addition, we identified firewall
           rules that allowed specific Internet Protocol (IP) addresses access to the
           firewall.   These IP addresses were needed when one of NASS’
           employees, located in a remote office, was assisting in the configuration of
           the firewall over two years ago. That employee is no longer with NASS;
           therefore, those IP addresses should have been removed from those
           rules. We consider this a material weakness.


USDA/OIG-A/26099-2-FM                                                            Page 12
          We also found that NASS had provided its security staff with only limited
          training on the proper configuration of its firewalls. While the security staff
          were the only ones allowed to enter or change firewall rules, they relied
          heavily on the NASS technical staff for guidance on what rules should be
          entered and how to enter them. Without proper training, the security staff
          was not sufficiently knowledgeable about firewall configurations to
          question the legitimacy or appropriateness of the rules being entered.

          Remote Access

          NASS has adopted a flexible workplace policy that allows its employees to
          work from their homes on a limited basis. Some of the employees have
          acquired high-speed Internet access for their homes providing them with
          faster and more efficient access to the NASS network than the older dial-
          up connections. To facilitate this, NASS configured its firewall to allow its
          employees to gain access to its network using two commercially available
          remote access software packages. This configuration circumvents one
          additional layer of authentication normally required of remote users that
          connect to NASS’ network using its dial-in access server. NASS users still
          need to provide user identification and a password for the remote access
          software, along with an additional password for their network login.
          However this configuration allows anyone with these two programs to
          scan NASS’ network attempting to connect to its systems, providing an
          opportunity to try guessing user names and passwords to gain entry.
          While NASS has provided its users with remote access software setup
          instructions that require passwords and the encryption of the data
          transmitted, NASS does not have any control over how the users
          ultimately decide to establish their connections. We consider this a
          material weakness.

          NASS should implement a virtual private network (VPN) solution and
          require smart card or token authentication for those sessions. Users
          would have to provide a user name, password, and an un-shareable token
          before access through the firewall could be granted. Further, through the
          use of a VPN, NASS could be assured that the data transmitted over the
          Internet would be encrypted, preventing unauthorized disclosure of any
          sensitive data transmitted. Finally, NASS would have more control over
          how this environment is configured and could control who has the
          authority to use the remote access software to gain entry into the NASS
          network.

          We discussed these issues with NASS management. They have agreed
          with our position and have begun procuring a smart card or token
          authorization system to implement with a VPN solution.



USDA/OIG-A/26099-2-FM                                                           Page 13
                                     Develop and implement a policy to periodically
  RECOMMENDATION NO. 5               review the firewall configuration and remove or
                                     modify firewall rules as necessary.


          Agency Response

          NASS has acquired new enterprise firewalls which are compatible with the
          Department’s firewall solution. NASS has taken steps to reduce the
          number of individual firewall rules which directly reduces the work
          associated with firewall management. NASS will be reviewing all firewall
          rules as the implementation of the new firewalls proceeds and will
          eliminate unnecessary rules at that time. NASS plans to have the new
          firewalls operational in May 2002.

          A Security Policy Directive has been approved which documents firewall
          configuration and management. This directive discusses the process for
          adding, deleting and modifying firewall rules. It also addresses the issue
          of periodically reviewing the firewall rules which have been implemented.

          OIG Position

          We accept the management decision on this recommendation.

                                     Implement a VPN solution with smart card or
  RECOMMENDATION NO. 6               token authentication and strong encryption for
                                     remote access to the internal NASS network.


          Agency Response

          NASS contracted with a private-sector firm, who along with OIG,
          recommended NASS implement advanced authentication measures for
          remote access. NASS has taken the first step in this process with the
          acquisition and implementation of modern firewall technology. NASS
          plans to implement a system providing advanced authentication for remote
          access following the implementation and testing of the new firewalls. The
          implementation of an advanced authentication system is expected to
          begin in July 2002.

          OIG Position

          We accept the management decision on this recommendation.




USDA/OIG-A/26099-2-FM                                                      Page 14
                                       Ensure that NASS’ security staff is properly
  RECOMMENDATION NO. 7                 trained to configure and maintain the firewall
                                       rule base to ensure the appropriateness of
                                       firewall rules.

          Agency Response

          NASS included a training requirement, as well as assistance with
          configuration and implementation of the new firewalls, as part of the recent
          firewall acquisition. This training will ensure that the security staff is well
          versed in firewall management and the generation and modification of
          rules. As stated in its response to Recommendation No. 5, NASS plans to
          have the new firewalls operational in May 2002.

          OIG Position

          We accept the management decision on this recommendation.




USDA/OIG-A/26099-2-FM                                                           Page 15
CHAPTER 4                    NASS NEEDS TO STRENGTHEN ITS LOGICAL
                             ACCESS CONTROLS


                                             NASS did not ensure that only authorized
              FINDING NO. 4                  users had access to its network. NASS had
                                             not implemented adequate written procedures
                                             to ensure that it timely removed user accounts
                                             for those persons that left NASS employment,
                 and had accepted the risk posed by the use of generic user accounts on
                 its network. As a result, persons no longer employed at NASS or anyone
                 with knowledge of the generic user identifications (ID) could
                 inappropriately access and potentially destroy critical NASS data.

                   Department Manual 3140-1.6, ADP Security Manual, (part 6 of 8), Appendix
                   D, Section 4a, requires agencies to use individual user IDs and passwords to
                   control access to systems processing personnel, financial, market-related, or
                   other sensitive data. Section 6c, specifically prohibits issuance of group
                   logon IDs and passwords and prohibits the sharing of the same. Section 6c
                   also requires security staff to remove employee user ids and passwords
                   when the employee is no longer with the agency.

                   In our prior report of IT security at NASS,4 we found that NASS had 3 user
                   accounts on its network that belonged to persons no longer employed by
                   NASS, and 150 generic user accounts that could have been used by several
                   persons. We recommended that NASS reduce the number of generic user
                   accounts, disable those that are not in use, and ensure that the privileges of
                   those accounts are not excessive. While NASS disabled 54 of the 150
                   generic user accounts we identified, NASS chose to accept the risk that
                   these generic user accounts pose in order to provide its staff easier
                   administration of accounts that are used only temporarily by any one person.

                   Generic accounts do not provide for individual responsibility and make it
                   impossible for system administrators to track the actions of the users of
                   those accounts in the event that inappropriate or malicious actions are taken.
                   Further, the existence of generic user accounts provides additional accounts
                   that a malicious user could use to gain unauthorized access to network
                   resources and data.

                   In our current review, we found that NASS had not removed the user
                   accounts for six persons no longer employed by NASS, five of which had

4
 Audit Report No. 26099-1-FM, “Security Over Information Technology Resources at the National Agricultural Statistics Service,”
dated May 14, 2001.

USDA/OIG-A/26099-2-FM                                                                                             Page 16
          not been disabled. NASS needs to establish a formal reconciliation
          process to ensure that separated employees are timely removed from its
          network. In addition, we found 228 generic user accounts, which
          represented over 38 percent of the total number of user accounts on
          NASS’ headquarters network. We consider this a material weakness.

          NASS officials informed us that they use a majority of these generic
          accounts for people needing access to the network on a rotating basis,
          eliminating the need for NASS network administrators to delete and
          recreate a user account every time one is needed. However, due to the
          sensitive nature of the data that NASS maintains, we believe that it should
          discontinue the use of shared, generic user accounts, and create user
          accounts when needed that provide for individual responsibility.

                                      Establish and implement procedures to ensure
  RECOMMENDATION NO. 8                that separated employee’s user accounts are
                                      timely removed from the NASS network.

          Agency Response

          NASS attempts to disable separated user accounts in a timely manner.
          There are occasions when user accounts are left active, for example,
          managers may need to move files to a new employee now responsible for
          a recently separated employee’s activities. NASS distributes personnel
          summaries which provide information concerning employees that are
          recently hired, separated, and transferred. The security staff will be added
          to the distribution list for this summary in April 2002. Additionally, the
          security staff will ask NASS’ personnel office for a listing of all separated
          and transferred employees on a quarterly basis beginning in April 2002.
          This should ensure that NASS remains current in disabling accounts for
          those employees who no longer require access to the network.

          OIG Position

          We agree with NASS’ proposed actions.




USDA/OIG-A/26099-2-FM                                                         Page 17
                                  Establish and implement procedures to
  RECOMMENDATION NO. 9            periodically reconcile user accounts on the
                                  NASS networks to current employee listings,
                                  and take immediate action to remove those
        accounts no longer needed.

           Agency Response

           NASS security staff will ask the personnel office for a listing of current
           employees on a quarterly basis beginning in April 2002. This listing will be
           used to reconcile current employees with current network user accounts.

           OIG Position

           We agree with NASS’ proposed actions.

                                       Discontinue the use of all generic user
 RECOMMENDATION NO. 10                 accounts on the NASS network. Establish
                                       accounts on an as-needed basis and assign
                                       individual responsibility to those accounts.

           Agency Response

           NASS agrees there is a degree of risk associated with allowing generic
           user accounts. NASS has disabled an additional 32 of these generic user
           accounts and deleted another 20. NASS is in the process of switching
           from generic user accounts to specific individual accounts for infrequent
           users. NASS plans to be totally switched from generic user accounts to
           individual accounts by September 30, 2002.

           OIG Position

           We accept the management decision on this recommendation.




USDA/OIG-A/26099-2-FM                                                         Page 18
                  FURTHER ACTIONS NEEDED TO COMPLY WITH
CHAPTER 5         FEDERALLY MANDATED SECURITY
                  REQUIREMENTS


                                      As reported in our prior audit, NASS has not
        FINDING NO. 5                 completed all the necessary risk assessments
                                      of its systems, adequately planned for network
                                      and system contingencies, or properly certified
                                      to the security of its major systems. NASS
           has begun and continues to take the necessary actions toward
           compliance. Since NASS relies on its IT infrastructure to supply market-
           sensitive data on commodities to the agricultural economy, it needs to
           promptly complete its planned actions to ensure compliance with these
           federally mandated requirements.

           OMB Circular A-130, Appendix III, “Security of Federally Automated
           Information Resources,” established a minimum set of controls for
           agencies’ automated information security programs, including certifying to
           the security of any systems that maintain sensitive data, establishing
           contingency plans and recovery procedures in the event of a disaster, and
           establishing a comprehensive security plan. Further, Presidential Decision
           Directive (PDD) 63, “Policy on Critical Infrastructure Protection,” requires
           agencies to assess the risks to their networks and establish a plan to
           mitigate the identified risks. Finally, the Government Performance and
           Results Act (GPRA) of 1993 requires agencies to establish annual
           performance plans and measurable performance goals relating to its
           operations.

           In our prior audit, we reported that NASS’ security plan did not include all
           the required elements outlined in OMB Circular A-130, that it had not
           completed risk assessments for all of its major systems, had not properly
           planned for contingencies by establishing a comprehensive disaster
           recovery plan, or properly certified to the security controls in its major
           systems.      We recommended that NASS take actions to ensure
           compliance with these requirements including implementing a time-phased
           plan to correct the deficiencies. NASS agreed with our recommendations
           and agreed to complete its compliance with these requirements by August
           2001. While NASS missed that timeframe, our review showed that it
           continues to take the necessary steps toward compliance. At the time of
           our review, NASS had updated its security plan; completed risk
           assessments for 2 of its systems, its network and 1 of the 10 systems


USDA/OIG-A/26099-2-FM                                                         Page 19
          identified in its security plan; and designed disaster recovery procedures
          for its field and headquarters offices.

          Since NASS is in the process of complying with these federally mandated
          requirements and the recommendations we made in our prior report, we
          are making no further recommendations on these issues in this report.
          However, until such time that NASS has completed compliance with these
          requirements, NASS needs to include this material weakness, and those
          addressed elsewhere in this report, in its Federal Manager’s Financial
          Integrity Act (FMFIA) report. Further, we believe that these weaknesses
          require NASS to establish measurable performance goals relating to
          securing its IT resources in its GPRA report.

                                     Report the material control weaknesses
 RECOMMENDATION NO. 11               identified in this report, including the
                                     noncompliance with OMB Circular A-130 and
                                     PDD 63 in its FMFIA report.

          Agency Response

          NASS is attempting to comply with the requirements of OMB Circular A-
          130. NASS spent a great deal of time during fiscal year 2001 trying to get
          the security plan in compliance with OMB Circular A-130 and PDD 63.
          Until compliant, NASS will report this material control weakness in it
          annual FMFIA report.

          OIG Position

          We accept the management decision on this recommendation.

                                     Establish performance goals and measures
 RECOMMENDATION NO. 12               relating to IT security in its GPRA report.



          Agency Response

          NASS is in the process of developing the agency’s fiscal year 2003 Annual
          Performance Plans as required under GPRA. NASS is defining a
          performance goal and associated measures to be included in this report.
          NASS will establish it goals and begin to measure its performance in July
          2002.

          OIG Position

          We agree with NASS’ actions on this recommendation.

USDA/OIG-A/26099-2-FM                                                      Page 20
EXHIBIT A – NASS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/26099-2-FM                           Page 21
EXHIBIT A – NASS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/26099-2-FM                           Page 22
EXHIBIT A – NASS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/26099-2-FM                           Page 23
EXHIBIT A – NASS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/26099-2-FM                           Page 24
EXHIBIT A – NASS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/26099-2-FM                           Page 25
                          ABBREVIATIONS


FMFIA     Federal Managers’ Financial Integrity Act
GPRA      Government Performance and Results Act
ID        identification
IP        Internet Protocol
IT        Information Technology
NASS      National Agricultural Statistics Service
OIG       Office of Inspector General
OMB       Office of Management and Budget
PDD       Presidential Decision Directive
SSO       State Statistical Office
TCP/IP    Transmission Control Protocol/Internet Protocol
USDA      U.S. Department of Agriculture
VPN       Virtual Private Network




USDA/OIG-A/26099-2-FM                                       Page 26
USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26

USDA/OIG-A/26099-2-FM   Page 26
